                     D EPART MENT OF HEALTH A~D HUvl.A::'\ SERVlC ES


                 0 Ff'ICE OF INSPECTOR G ENERAL

- · -- ------ - -- - - - - - -- - - - ­
                                       NOV - 7 2012
 TO: 	          Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services
                            /S/
 FROM:          Stuart Wright
                Deputy Inspector General
                  for Evaluation and Inspections


 SUBJECT: 	 Memorandum Report: Supplier Billing for Diabetes Test Strips and
            Inappropriate Supplier Activities in Competitive Bidding Areas,
            OEI-04-11-00760


 This memorandum report responds to a written request from the Centers for Medicare &
 Medicaid Services (CMS) for the Office oflnspector General (OIG) to determine
 whether an increase in claims for non-mail order diabetes test strips (DTS) between 2010
 and 2011 may be attributed to abusive supplier practices. These practices include
 (1) improperly billing mail order items as non-mail order and (2) inappropriately waiving
 beneficiaries' out-of-pocket expenses (i.e., copayments). Under Round 1 ofCMS's
 Competitive Bidding Program, implemented in January 2011, non-mail order DTS in
 Competitive Bidding Areas (CBAs) are reimbursed at a rate more than double that of
 mail order DTS. This price difference provides a financial incentive for suppliers to bill
 for non-mail order rather than mail order DTS. In contrast, this price difference provides
 a financial disincentive for beneficiaries because they are responsible for a 20-percent
 Medicare copayment, and the higher price of non-mail order DTS thus makes the
 copayment higher. The Senate Special Committee on Aging also expressed written
 concerns to OIG regarding the price difference between mail order and non-mail order
 DTS.

 In accordance with CMS's request, we determined the extent to which (1) claims in
 CBAs for the more expensive, non-mail order DTS increased between 2010 and 2011;
 (2) suppliers improperly billed Medicare for the more expensive, non-mail order DTS in
 2011; (3) beneficiaries changed from mail order to non-mail order DTS between 2010
 and 2011 because suppliers waived their copayments; and (4) suppliers conducted
 activities that we determined to be inappropriate (i.e., routinely waiving copayments,
 sending unsolicited DTS) in 2010 or 2011.
Page 2 – Marilyn Tavenner


SUMMARY

We reviewed 2010 and 2011 Medicare claims data and conducted telephone interviews
with 211 beneficiaries. We found that claims in CBAs for the more expensive, non-mail
order DTS increased by 33 percent from 2010 to 2011, while claims for the less
expensive, mail order DTS decreased by 71 percent. Further, for 20 percent of
beneficiaries in our review, suppliers improperly billed Medicare for the more expensive,
non-mail order DTS in 2011, but beneficiaries reported having instead received the less
expensive, mail order DTS. This improper supplier billing contributed to the increase in
claims for non-mail order DTS between 2010 and 2011. Of the beneficiaries in our
review who reported changing from mail order to non-mail order DTS between 2010 and
2011, none reported suppliers’ waiver of copayments as a reason for their change.
Therefore, suppliers’ inappropriate waiver of beneficiaries’ copayments did not appear to
contribute to the increase in non-mail order DTS claims between 2010 and 2011.
However, 23 percent of beneficiaries in our review reported supplier activities (i.e.,
routinely waiving copayments, sending unsolicited DTS) that we determined to be
inappropriate.

BACKGROUND

Diabetes is a chronic disease in which a person has a high blood sugar (i.e., glucose) level
because either the body does not produce enough insulin or cells do not respond properly
to the insulin that the body does produce. 1 If not properly managed, diabetes can lead to
a number of complications, including increased risk for heart attack and stroke. 2
Monitoring blood sugar levels is one way that individuals with diabetes can manage their
disease. Individuals with diabetes use DTS in small, hand-held blood glucose meters to
test the concentration of glucose in their blood. This test, which may need to be
performed several times a day, can assist individuals with diabetes in maintaining their
blood glucose at the appropriate level.

DTS Reimbursement Under the Competitive Bidding Program
Title XVIII of the Social Security Act sets coverage requirements under Part B of the
Medicare program. Part B covers durable medical equipment, prosthetics, orthotics, and
supplies (DMEPOS), including DTS and blood glucose monitors for individuals with
diabetes. 3 Generally, Medicare pays 80 percent of the Medicare-allowed amount for
DTS, and beneficiaries are responsible for the remaining 20 percent. 4

Medicare covers up to 100 DTS (i.e., two 50-count boxes) per month for
insulin-dependent beneficiaries and up to 100 DTS every 3 months for
1
  National Institutes of Health, Diagnosis of Diabetes. Accessed at
http://diabetes.niddk.nih.gov/dm/pubs/diagnosis/ on June 20, 2012.
2
  National Center for Biotechnology Information, U.S. National Library of Medicine, Diabetes
Complications. Accessed at http://www.ncbi.nlm.nih.gov/pubmedhealth/PMH0002194/ on February 1,
2012.
3
  Social Security Act, §§ 1832(a)(1), 1861(s)(6), and 1861(n), 42 U.S.C. §§ 1395k(a)(1), 1395x(s)(6), and
1395x(n).
4
  Social Security Act, §1834(a), 42 U.S.C. §1395m(a).


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 3 – Marilyn Tavenner


non-insulin-dependent beneficiaries. 5 Medicare covers DTS that exceed the utilization
guidelines only if deemed medically necessary. 6 Until January 2011, CMS reimbursed
DTS throughout the country using established fee schedule amounts based on payment
amounts allowed under the previous reasonable-charge payment methodology.

In January 2011, CMS implemented Round 1 of its Competitive Bidding Program for
selected DMEPOS, including mail order DTS, in nine CBAs. 7 The DMEPOS items that
were selected for inclusion in the initial Competitive Bidding Program are generally
high-cost and/or high-volume items with high cost-savings potential. 8 CMS estimates
that the Competitive Bidding Program will save Medicare more than $17 billion over a
10-year period. 9 Under the Competitive Bidding Program, suppliers submit competing
bids to become Medicare contract suppliers in CBAs. 10 In each CBA, the lower-cost
single payment amount that results from the bidding process replaces the higher-cost fee
schedule amount. Contracts to supply DMEPOS in CBAs are awarded to enough
winning bidders to meet beneficiary demand in each CBA. 11

The Competitive Bidding Program currently includes mail order DTS but not non-mail
order DTS. Beneficiaries in CBAs must purchase mail order DTS from a winning
contract supplier for their respective CBAs. However, any beneficiary—regardless of
whether he or she lives in a CBA—can purchase non-mail order DTS from any enrolled
Medicare supplier.



5
  CMS, Medicare Local Coverage Determinations (LCDs) for Glucose Monitors (L11530, L27231,
L11520, and L196). Insulin-dependent beneficiaries (i.e., beneficiaries with type 1 diabetes) depend on
insulin injections to regulate their blood glucose levels. Non-insulin dependent beneficiaries (i.e.,
beneficiaries with type 2 diabetes) can manage their disease with lifestyle changes, such as special diets and
exercise and do not require insulin injections to regulate their blood glucose levels. National Institute of
Diabetes and Digestive and Kidney Diseases, Your Guide to Diabetes: Type 1 and Type 2. Accessed at
http://diabetes.niddk.nih.gov/dm/pubs/type1and2/what.aspx on August 13, 2012.
6
  CMS, Medicare Local Coverage Determinations (LCDs) for Glucose Monitors (L11530, L27231,
L11520, and L196). See also, CMS, MLN [Medicare Learning Network] Matters, Number SE1008.
Accessed at http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
MLN/MLNMattersArticles/downloads//SE1008.pdf on April 24, 2012.
7
  CBAs are defined by specific ZIP Codes related to Metropolitan Statistical Areas. The nine CBAs
included in Round 1 were Cincinnati-Middletown (Ohio, Kentucky, and Indiana); Charlotte-Gastonia-
Concord (North Carolina and South Carolina); Cleveland-Elyria-Mentor (Ohio); Dallas-Fort Worth-
Arlington (Texas); Kansas City (Missouri and Kansas); Miami-Fort Lauderdale-Pompano Beach
(South Florida); Orlando-Kissimmee (Florida); Pittsburgh (Pennsylvania); and Riverside-San Bernardino-
Ontario (California). Accessed at
http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/Fact_Sheet_Competitive_Bidding_Areas.pdf/$
FIle/Fact_Sheet_Competitive_Bidding_Areas.pdf on June 20, 2012.
8
  CMS, General Overview of the Final Rule for Competitive Acquisition for Certain Durable Medical
Equipment, Prosthetics, Orthotics, and Supplies. Accessed at
https://www.cms.gov/DMEPOSCompetitiveBid/Downloads/DMEPOSRegSumm.pdf on February 1, 2012.
9
  CMS, CMS’ Implementation of Round 1 Rebid of DMEPOS Competitive Bidding Program. April 5,
2011. Accessed at http://www.hhs.gov/asl/testify/2010/09/t20100915a.html on February 1, 2012.
10
   CMS, DMEPOS Competitive Bidding—Overview. Accessed at
https://www.cms.gov/dmeposcompetitivebid/ on February 1, 2012.
11
   Ibid.


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 4 – Marilyn Tavenner


In 2010 and 2011, CMS defined mail order as items delivered by a common carrier, such
as UPS, FedEx, or the U.S. Postal Service. 12 CMS intended for this definition to
distinguish between mail order items and non-mail order items, i.e., items that a
beneficiary or caregiver picks up in person at a local pharmacy or storefront. 13 However,
some suppliers began using their own fleet of vehicles to deliver DTS to beneficiaries’
homes, allowing the suppliers to bill Medicare for non-mail order DTS. 14

In CBAs, Medicare payment for mail order DTS under the Competitive Bidding Program
is lower than that for non-mail order DTS. Specifically, under Round 1 of the
Competitive Bidding Program, the average per-box reimbursement for mail order DTS
provided to beneficiaries in CBAs in 2011 was $14.62. In contrast, the average per-box
fee schedule reimbursement for non-mail order DTS provided to beneficiaries in CBAs in
2011 was $37.67—more than double that of mail order. Therefore, suppliers have a
financial incentive to bill for non-mail order DTS rather than mail order DTS for
beneficiaries in CBAs. In contrast, this price difference provides a financial disincentive
for beneficiaries because they are responsible for a 20-percent Medicare copayment, and
the higher price of non-mail order DTS thus makes the copayment higher. 15

To receive Medicare reimbursement for mail order DTS, suppliers must submit claims
using the Healthcare Common Procedure Coding System (HCPCS) code A4253. 16 In
addition, if the DTS were furnished on a mail order basis, the supplier must use HCPCS
modifier KL on the claim. 17 For beneficiaries in CBAs, claims with the KL modifier are
reimbursed at the lower Competitive Bidding Program amount. Claims without the KL
modifier indicate that the DTS were non-mail order, and the claims are reimbursed at the
higher fee schedule amount.

Suppliers may refill an order for mail order or non-mail order DTS only when
beneficiaries have nearly exhausted the previous supply and specifically request that the
DTS be dispensed. 18 Suppliers may not automatically dispense a quantity of DTS on a



12
   CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 36, § 10.2. Accessed at
https://www.cms.gov/manuals/downloads/clm104c36.pdf on February 2, 2012. See also CMS, Mail Order
Diabetic Supplies Fact Sheet. Accessed at
https://www.cms.gov/MLNProducts/downloads/DME_Mail_Order_Factsheet_ICN900924.pdf on June 20,
2012.
13
   75 Fed. Reg. 73170, 73569-70 (Nov. 29, 2010).
14
   Ibid. After Round 1 of the Competitive Bidding Program, CMS will expand the definition of mail order
to include “any item (for example, diabetes testing supplies) shipped or delivered to the beneficiary’s home
regardless of the method of delivery.” 75 Fed. Reg. 73170, 73570, and 73623 (Nov. 29, 2010) (revising the
definition of “mail order item” in 42 CFR 414.402 and explaining why the new definition will not apply to
Round 1). The new definition of “mail order” will include supplier delivery to beneficiary homes.
15
   42 CFR 414.408(a).
16
   CMS, Medicare Local Coverage Determinations (LCDs) for Glucose Monitors (L11530, L27231,
L11520, and L196).
17
   CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 36, §§ 20.5.4.1 and 50.6.
18
   CMS, Medicare Program Integrity Manual. Pub. 100-08, ch. 4, § 4.26.1. See also CMS, Medicare
Program Integrity Manual, Pub. 100-08, ch. 5, § 5.2.6 (effective Aug. 8, 2011).


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 5 – Marilyn Tavenner


predetermined basis. 19 Instead, suppliers must contact the beneficiary prior to dispensing
the refill.

CMS will implement a National Mail Order Competition for diabetes test supplies,
including DTS. The National Mail Order Competition will take effect in 2013,
concurrent with Round 2 of the Competitive Bidding Program. 20 The National Mail
Order Competition will cover DTS that are delivered via any method (i.e., common
carrier or supplier delivery) to beneficiaries in all parts of the U.S. As an alternative,
beneficiaries may still choose to receive the more expensive, non-mail order DTS by
picking them up in person from the supplier’s storefront.

DTS Supplier Practices That Are Inappropriate Under the Federal False Claims
Act and the Federal Anti-Kickback Statute
A supplier that knowingly presents to the Federal Government a false or fraudulent claim
for payment faces liability under the Federal False Claims Act. 21, 22 For example, a claim
for mail order DTS that is submitted without the KL modifier (i.e., indicating incorrectly
that non-mail order DTS were supplied) would be a “false claim” under the Federal False
Claims Act. 23 Further, a claim containing a total charge that includes the beneficiary’s
copayment can also be a false claim if the supplier routinely waives the beneficiary’s
copayment. 24

Under the Federal Anti-Kickback Statute, it is illegal to knowingly and willfully solicit,
offer, pay, or receive any remuneration to induce or reward referrals of items or services
reimbursable by a Federal health care program, such as Medicare. 25 Suppliers must not



19
   CMS, Medicare Program Integrity Manual. Pub. 100-08, ch. 4, § 4.26.1. See also CMS, Medicare
Program Integrity Manual, Pub. 100-08, ch. 5, § 5.2.6 (effective Aug. 8, 2011).
20
   CMS, National Mail-Order Competition for Diabetic Testing Supplies. Accessed at
http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/R2_Fact_Sheet_Mail-
Order_Diabetic_Supplies.pdf/$FIle/R2_Fact_Sheet_Mail-Order_Diabetic_Supplies.pdf on January 30,
2012.
21
   31 U.S.C. § 3729(a)(1).
22
   In fiscal year 2009, $2.4 billion was recovered for Federal False Claims Act cases. Health care-related
cases accounted for two-thirds ($1.6 billion) of the money recovered. Medicare and Medicaid-related cases
composed the bulk of health care-related cases. Department of Justice, Office of Public Affairs, Justice
Department Recovers $2.4 Billion in False Claims Cases in Fiscal Year 2009; More Than $24 Billion
Since 1986. November 19, 2009. Accessed at http://www.justice.gov/opa/pr/2009/November/09-civ-
1253.html on February 1, 2012.
23
   The supplier does not have to deliberately intend to defraud the Federal Government to be liable under
the Federal False Claims Act; instead, the supplier only needs to “knowingly” present the false or
fraudulent claim. The definition of “knowingly” includes: (1) having actual knowledge that the
information on the claim is false; (2) acting in deliberate ignorance of the truth or falsity of the information
on the claim; or (3) acting in reckless disregard of the truth or falsity of the information on the claim.
31 U.S.C. § 3729(b)(1).
24
   The Department of Health and Human Services (HHS), OIG Special Fraud Alert, 59 Fed. Reg. 6532
(December 19, 1994). Accessed at http://oig.hhs.gov/fraud/docs/alertsandbulletins/121994.html on
February 1, 2012.
25
   42 U.S.C. §§ 1320a–7b(b).


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 6 – Marilyn Tavenner


offer beneficiaries incentives, such as routinely waiving copayments, as a means of
generating Medicare business. 26

Medicare Fraud in South Florida
In recent years, South Florida has been a focus area of efforts to combat Medicare fraud,
waste, and abuse. Additionally, in 2007, HHS and the Department of Justice (DOJ)
established a joint Medicare Fraud Strike Force (Strike Force) in South Florida to combat
Medicare fraud. Strike Forces are teams of Federal, State, and local investigators that
combat fraud in certain areas of the country by analyzing current Medicare claims data. 27
In July 2010, the Strike Force in South Florida charged 24 defendants in Miami for
allegedly participating in various schemes that resulted in approximately $103 million in
false claims. 28 OIG has published reports indicating that South Florida is a fraud-prone
area for Medicare, including home health services, community mental health services,
and retail pharmacies’ billing for prescription drugs. 29

METHODOLOGY

Scope of Inspection
We reviewed 2010 and 2011 Medicare claims data and conducted beneficiary telephone
interviews to determine the extent to which claims in CBAs for non-mail order DTS
increased between 2010 and 2011. We also determined the extent to which: (1) suppliers
improperly billed Medicare for non-mail order DTS in 2011, (2) beneficiaries changed
from mail order DTS in 2010 to non-mail order DTS in 2011 because suppliers waived
their copayments, and (3) suppliers conducted activities that were inappropriate (i.e.,
routinely waiving copayments, sending unsolicited DTS) in 2010 or 2011.

Data Collection and Analysis
We analyzed 2010 and 2011 DTS claims from CMS’s Durable Medical Equipment
100 Percent Standard Analytic File to identify beneficiaries who received DTS in 2010

26
   In addition, Federal law provides for the imposition of civil monetary penalties against any supplier who
offers or transfers remuneration (which includes waiver of copayments and deductibles) that the person
knows or should know is likely to influence the individual to order or receive Medicare items or services
from a particular supplier. Social Security Act, 1128A(a)(5) and 1128A(i)(6), 42 U.S.C. §§ 1320a-7a(a)(5)
and 1320a-7a(i)(6). Suppliers may waive copayments on a case-by-case basis if three criteria are met:
(1) the copayments are not waived in connection with any advertisement or solicitation; (2) the copayments
are not routinely waived; and (3) the suppliers have made a good faith determination that the beneficiary
has a financial hardship, or reasonable collection efforts to collect the beneficiary’s copayment have failed.
Social Security Act, 1128A(i)(6)(A), 42 U.S.C. § 1320a-7a(i)(6)(A).
27
   HHS News Release, Strike Force Formed To Target Fraudulent Billing of Medicare Program by Health
Care Companies. Accessed at http://www.hhs.gov/news/press/2007pres/05/20070509c.html on
February 1, 2012.
28
   Nationwide Strike Force operations in July 2010 resulted in charges against 94 doctors and over
$251 million in alleged false billing. HHS and DOJ, Medicare Fraud Strike Force Charges 94 Doctors,
Health Care Company Owners, Executives and Others for More Than $251 Million in Alleged False
Billing. Accessed at http://www.hhs.gov/news/press/2007pres/05/20070509c.html on February 1, 2012.
29
   HHS OIG, Inappropriate and Questionable Billing by Medicare Home Health Agencies,
OEI-04-11-00240, August 2012; HHS OIG, Questionable Billing by Community Mental Health Centers,
OEI-04-11-00100, August 2012; and HHS OIG, Retail Pharmacies With Questionable Part D Billing,
OEI-02-09-00600, May 2012.


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 7 – Marilyn Tavenner


and/or 2011. From these data, we calculated the number of claims, Medicare-allowed
amounts, and the number of beneficiaries who received mail order or non-mail order
DTS.

We then identified beneficiaries in CBAs who, according to Medicare claims data,
received DTS in both 2010 and 2011 (174,243 beneficiaries). From this, we identified
3,633 beneficiaries in CBAs who showed a pattern of receiving both mail order DTS in
2010 and non-mail order DTS in 2011. We identified beneficiaries as having this pattern
if they had at least two mail order DTS claims in the last 6 months of 2010 and at least
two non-mail order DTS claims in the first 6 months of 2011. We did not include
beneficiaries who, according to Medicare claims data, received only mail order DTS or
only non-mail order DTS in 2010 and 2011.

From our population of 3,633 beneficiaries with this pattern, we selected a stratified
random sample of 500 beneficiaries. Because prior OIG work has demonstrated that
South Florida is a fraud-prone area for Medicare, we stratified our sample to include
250 of the 863 beneficiaries in the South Florida CBA and 250 of the 2,771 beneficiaries
in the remaining eight CBAs. This sample represented 14 percent of beneficiaries,
22 percent of Medicare-allowed amounts, and 19 percent of claims in our population.
Table 1 provides information about the two strata in our sample compared to the
population from which we selected the sample.


Table 1: Sample Compared to Population, Overall and for Two Strata

                                        Number of Beneficiaries             Medicare-Allowed          Number of DTS Claims
Sample Versus Population              Receiving DTS in 2010 and       Amounts in 2010 and 2011            in 2010 and 2011
                                                           2011
Sample                                                       500                      $589,324**                           4,324
  South Florida CBA                    250                            $313,408                        2,111
  Remaining Eight CBAs                 250                            $275,917                        2,213
Population                                                3,633*                      $2,643,370                          22,565
 South Florida CBA                      862                           $645,009                       4,898
 Remaining Eight CBAs                2,771                          $1,998,361                      17,667

* Sum of beneficiaries in the two strata exceeds the population of beneficiaries because one beneficiary moved from the
South Florida CBA to one of the remaining eight CBAs within our timeframe and is counted in both strata.
** Sum of Medicare-allowed amounts in 2010 and 2011 is less than the sum of the two strata due to rounding.
Source: OIG analysis of the 18-month updates of the 2010 and 2011 CMS Durable Medical Equipment 100 Percent Standard
Analytic Files, 2012.


One week prior to conducting our March 2012 telephone interviews, we sent letters in
English and Spanish to beneficiaries notifying them that an OIG representative would be
calling to request their participation in this study. 30 We searched online and used a




30
   Although 12 letters were undeliverable and marked “unable to forward” or “unidentifiable as addressed,”
we attempted to contact these beneficiaries via telephone to conduct the interview.


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 8 – Marilyn Tavenner


comprehensive database to obtain telephone numbers for the sampled beneficiaries. 31
For the 405 beneficiaries for whom we could locate telephone numbers, we attempted to
contact them at least three times to ask them to participate in our interview. We
conducted interviews in English or Spanish, depending on each beneficiary’s preference.
We completed telephone interviews with 104 beneficiaries in the South Florida CBA and
107 beneficiaries in the remaining eight CBAs, yielding a total of 211 interviews and a
42-percent response rate. 32, 33

We compared interview respondents to nonrespondents on three variables: age, gender,
and the number of Medicare DTS claims for the beneficiaries in 2010 and 2011. 34 We
did not find differences on any of the variables that were significant at the 95-percent
confidence level. See Appendix A for beneficiary information on these three variables
for respondents and nonrespondents in the South Florida CBA, the remaining eight
CBAs, and all CBAs combined.

We conducted telephone interviews with beneficiaries in our sample to determine how
they received DTS in 2010 and 2011. We then determined whether their suppliers
properly billed Medicare for mail order DTS in 2010 and non-mail order DTS in 2011.
We determined that supplier billing was proper if beneficiaries reported obtaining DTS
(1) in 2010 by having the DTS delivered to their homes by a common carrier (i.e., via
mail order) and (2) in 2011 through beneficiary storefront pickup or supplier delivery to
their homes (i.e., via non-mail order). If beneficiaries reported receiving DTS in 2010
only through non-mail order or in 2011 only through mail order, we determined that their
suppliers improperly billed Medicare.

If beneficiaries told us that their suppliers provided mail order DTS in 2010 and non-mail
order DTS in 2011, we asked beneficiaries why their method for receiving DTS changed.
We also asked these beneficiaries if they were aware of the potential cost savings
associated with mail order DTS and if they would be willing to switch back to mail order
DTS to save themselves and/or the Medicare program money.



31
   We used CLEAR For Law Enforcement & Government Investigators to obtain sampled beneficiaries’
telephone numbers. CLEAR provides access to a vast collection of public and proprietary records,
including landline phone and cell phone data. Accessed at
https://clear.thomsonreuters.com/clear_home/government.htm on June 20, 2012.
32
   The response rate is calculated out of a total of 498 beneficiaries. Two beneficiaries out of the original
500 sampled beneficiaries were not located in either the South Florida CBA or the remaining 8 CBAs.
33
   For the remaining beneficiaries, one of the following situations applied: the telephone numbers that we
had were disconnected (80 beneficiaries), we did not have telephone numbers (74 beneficiaries), we had
functional telephone numbers but could not reach the beneficiaries after at least three attempts
(73 beneficiaries), the beneficiaries declined to participate in the interview (36 beneficiaries), or the
beneficiaries were deceased (24 beneficiaries).
34
   Although we also had access to demographic information regarding beneficiary race, this data tends to be
unreliable. Therefore, we did not compare respondents and nonrespondents based on race. For example,
see CMS, Accuracy and Bias of Race/Ethnicity Codes in the Medicare Enrollment Database. Accessed at
https://www.cms.gov/Research-Statistics-Data-and-
Systems/Research/HealthCareFinancingReview/downloads/04-05Winterpg61.pdf on June 20, 2012.


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 9 – Marilyn Tavenner


Finally, we asked beneficiaries whether suppliers waived their Medicare copayments
and/or sent them DTS that they did not order (i.e., unsolicited DTS) in 2010 or 2011. We
then determined if these actions were inappropriate based on beneficiaries’ interview
responses, as described below:

Determining whether suppliers inappropriately waived copayments. We asked
beneficiaries how often, in 2010 or 2011, they paid a copayment when they purchased
DTS. If beneficiaries responded that they sometimes or never paid a copayment, we
asked if they had supplemental insurance to Medicare that paid their copayment or if they
had a financial hardship. If beneficiaries did not have supplemental insurance or a
financial hardship, we determined that their suppliers were waiving their copayments
inappropriately.

Determining whether suppliers inappropriately sent unsolicited DTS. We asked
beneficiaries whether, in 2010 or 2011, they received DTS that they did not order. If
beneficiaries received DTS that they did not order, we asked them how often this
occurred and how many unsolicited DTS boxes they received. We determined that
suppliers inappropriately sent unsolicited DTS if the beneficiaries reported receiving DTS
that they did not order.

For the results of our beneficiary interviews, we provide sample statistics, combined, for
the two strata in our review. These combined statistics are weighted by each stratum’s
proportion of the population from which our sample was selected. Further, we did not
find significant differences between the two strata in our review. Appendix B shows the
sample sizes and weighted point estimates for all statistics in this report, both overall and
for the two strata in our review. We do not project these sample statistics to the
population from which our sample was selected.

We will forward to our investigators and/or CMS all instances of suppliers’ improper
billing and inappropriate activities that we identified, so that they may determine the
appropriate course of action.

Limitations
Our results are based on self-reported data from beneficiaries and were not independently
verified by a review of supplier or physician medical records. Beneficiaries’ ability to
recall events, particularly over a span of 2 years, may affect our data.

Standards
This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation approved by the Council of the Inspectors General on Integrity and
Efficiency.




Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 10 – Marilyn Tavenner


RESULTS

Claims in CBAs for the more expensive, non-mail order DTS increased from 2010 to
2011, while claims for the less expensive, mail order DTS decreased
Overall, Medicare claims for DTS in CBAs decreased by 22 percent after CMS
implemented Round 1 of the DMEPOS Competitive Bidding Program in January 2011.
Further, the number of claims for the more expensive, non-mail order DTS in CBAs
increased by 33 percent, and the number of claims for the less expensive, mail order DTS
in CBAs decreased by 71 percent. Similarly, Medicare-allowed amounts for non-mail
order DTS and the number of beneficiaries receiving such DTS in CBAs increased
between 2010 and 2011, whereas those for mail order DTS decreased. In contrast, there
was not a similar pattern in the number of claims, Medicare-allowed amounts, or the
number of beneficiaries in non-CBA areas between 2010 and 2011. 35

Table 2 shows the percentage change in the number of claims, Medicare-allowed
amounts, and the number of beneficiaries receiving non-mail order and mail order DTS in
CBAs between 2010 and 2011. Table 2 provides these data for the South Florida CBA,
the remaining eight CBAs, and overall. Appendix C provides the number of claims,
Medicare-allowed amounts, and number of beneficiaries, as well as the percentage
change for each of these categories.


Table 2: Percentage Change in the Number of Claims, Medicare-Allowed Amounts,
and the Number of Beneficiaries Receiving Non-Mail Order and Mail Order DTS in
CBAs Between 2010 and 2011
                                                                          Change in
                                  Change in Number of             Medicare-Allowed             Change in Number of
Paid Medicare Claims          Claims Between 2010 and          Amounts Between 2010            Beneficiaries Between
                                                2011*                     and 2011*                  2010 and 2011*

Non-Mail Order                                    + 33%                          + 49%                         + 46%
 South Florida CBA            + 19%                         + 37%                         + 45%
 Remaining Eight CBAs         + 40%                         + 55%                         + 48%
Mail Order                                         - 71%                         - 84%                          - 61%
 South Florida CBA            - 83%                         - 89%                         - 74%
 Remaining Eight CBAs         - 68%                         - 82%                         - 59%
Total                                              - 22%                         - 36%                          - 18%
 South Florida CBA            - 18%                         - 23%                         - 14%
 Remaining Eight CBAs         - 24%                         - 40%                         - 21%
* Percentage change includes beneficiaries who switched from mail order to non-mail order DTS, beneficiaries who were
new to receiving DTS through Medicare in 2011, and beneficiaries who no longer received DTS through Medicare in 2011.
Source: OIG analysis of the 18-month updates of the 2010 and 2011 CMS Durable Medical Equipment 100 Percent
Standard Analytic Files, 2012.




35
  The number of non-mail order DTS claims in non-CBA areas decreased by 3 percent, and the number of
mail order DTS claims increased by 4 percent. Medicare-allowed amounts for non-mail order DTS in
non-CBA areas decreased by 4 percent, and allowed amounts for mail order DTS increased by 1 percent.
The number of beneficiaries receiving non-mail order DTS in non-CBA areas decreased by 2 percent, and
the number of beneficiaries receiving mail order DTS increased by 4 percent.


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 11 – Marilyn Tavenner


For 20 percent of beneficiaries in our review, suppliers improperly billed Medicare
for the more expensive, non-mail order DTS in 2011, but beneficiaries reported
receiving the less expensive, mail order DTS
For all 500 beneficiaries in our sample, Medicare claims data documented that suppliers
billed at least two orders of the more expensive, non-mail order DTS in 2011. However,
20 percent of the 211 beneficiaries we interviewed told us they received the less
expensive, mail order DTS in 2011. Specifically, these beneficiaries received their mail
order DTS through common carrier delivery to their homes. For example, one
beneficiary in our review from the South Florida CBA stated that he has always had DTS
delivered to his house through a mail carrier. He has “never had to sign anything and
[has] never seen a supplier van.”

Further, our analysis of beneficiaries’ interview responses shows that the suppliers that
provided DTS to these beneficiaries improperly billed Medicare for the more expensive,
non-mail order DTS and received a higher Medicare reimbursement than they should
have received. The average reimbursement rate for non-mail order DTS in 2011 was $23
per box more than for mail order DTS. 36

The remaining beneficiaries in our review fell into four additional categories:
1. Beneficiaries whose suppliers properly billed Medicare for mail order DTS in 2010
   and non-mail order DTS in 2011. For 42 percent of beneficiaries in our review, we
   determined that suppliers properly billed Medicare for mail order DTS in 2010 and
   non-mail order DTS in 2011. 37 That is, these beneficiaries received DTS in 2010 and
   2011 in a manner that was consistent with their Medicare claims data.
2. Beneficiaries whose suppliers improperly billed Medicare for the less expensive, mail
   order DTS in 2010 while providing the more expensive, non-mail order DTS. For
   29 percent of beneficiaries in our review, we determined that the suppliers received
   less Medicare reimbursement than they could have received. 38 In 2010, prior to the
   implementation of the Competitive Bidding Program, the average reimbursement rate
   for mail order DTS was $5 per box less than for non-mail order DTS.
3. Beneficiaries who could not be classified as receiving mail order DTS in 2010 or
   non-mail order DTS in 2011. Eight percent of beneficiaries in our review reported
   that they either received both mail order and non-mail order DTS within the same
   year (i.e., 2010 or 2011) or they could not recall how they received DTS in 2010 or
   2011.
4. Beneficiaries did not have diabetes. One percent of beneficiaries in our review
   reported that they did not have diabetes, although Medicare paid suppliers for at least
   two mail order DTS claims in 2010 and at least two non-mail order DTS claims in


36
   The 20 percent of beneficiaries with improper supplier billing had a total of 133 non-mail order claims in
2011, resulting in $22,278 in improper Medicare-allowed amounts to suppliers. In comparison, Medicare
allowed a total of $113,058 for non-mail order DTS in 2011 for the 211 beneficiaries in our review.
37
   Fifty-three percent of these beneficiaries began picking up non-mail order DTS in person in 2011. The
remaining 47 percent received non-mail order DTS through supplier delivery to their homes.
38
   Sixty percent of these beneficiaries had suppliers deliver the non-mail order DTS to their homes in 2010,
and the remaining 40 percent of beneficiaries picked up non-mail order DTS from the supplier’s storefront.


Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 12 – Marilyn Tavenner


   2011 for these beneficiaries. These two beneficiaries did not use DTS, did not
   receive DTS, and were not aware that Medicare paid for DTS for them.

Beneficiaries in our review cited several reasons for changing from mail order to
non-mail order DTS between 2010 and 2011, but no beneficiaries reported
suppliers’ waiver of copayments as a reason for their change
The 42 percent of the 211 beneficiaries in our review who changed from mail order to
non-mail order DTS between 2010 and 2011 reported changing for four primary reasons.
Of the beneficiaries who changed methods for receiving DTS, most beneficiaries
(81 percent) reported doing so because the suppliers they used in 2010 were not selected
as winning bidders under the Competitive Bidding Program. Therefore, these suppliers
could not continue to provide mail order DTS to beneficiaries in CBAs in 2011. The
remaining beneficiaries who reported changing from mail order to non-mail order DTS
between 2010 and 2011 did so for other reasons. Eight percent of beneficiaries who
changed methods did so because they were dissatisfied with the suppliers they used in
2010. Seven percent changed methods because the brand of DTS that worked with their
monitors was no longer available through the suppliers they had used in 2010, and
2 percent changed methods because they did not like receiving DTS through mail order.
An additional 2 percent changed methods but reported that they did not know why they
had done so.

None of the beneficiaries in our review reported changing from mail order DTS in 2010
to non-mail order DTS in 2011 because their suppliers waived their copayments.
However, 79 percent of beneficiaries in our review who received mail order DTS in 2010
and non-mail order DTS in 2011 did not pay any copayment for DTS in 2011. Of these
beneficiaries, 87 percent had supplemental insurance that paid their entire Medicare
copayment, and 10 percent of beneficiaries never paid a Medicare copayment for DTS in
2011 and did not know why. The remaining 3 percent had their Medicare copayment
waived due to financial hardship.

Further, of the 42 percent of beneficiaries in our review who received mail order DTS in
2010 and non-mail order DTS in 2011, 71 percent were not aware of the potential cost
savings to themselves or the Medicare program associated with mail order DTS. That is,
these beneficiaries did not know that the average reimbursement for non-mail order DTS
in 2011 was more than double that of mail order. Further, the majority of this group
(67 percent) reported that they would be willing to switch back to mail order DTS to save
themselves and/or the Medicare program money.

Twenty-three percent of beneficiaries in our review reported supplier activities that
were inappropriate
Based on beneficiaries’ interview responses, we determined that for 23 percent of the
211 beneficiaries in our review, suppliers inappropriately waived copayments and/or sent
unsolicited DTS to beneficiaries in 2010 and/or 2011. For 1 percent of beneficiaries in
our review, suppliers conducted both of these inappropriate activities. DTS suppliers
who inappropriately waive beneficiaries’ copayments or send unsolicited DTS to




Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 13 – Marilyn Tavenner


beneficiaries may be in violation of the Federal False Claims Act or the Federal
Anti-Kickback Statute.

For 20 percent of beneficiaries in our review, DTS suppliers inappropriately waived
beneficiaries’ copayments in 2010 or 2011. These beneficiaries did not know why they
did not have to pay a copayment for DTS, and they did not have supplemental insurance
or a financial hardship. Of the beneficiaries whose copayments were inappropriately
waived in 2010 or 2011, most (89 percent) reported that their copayments were always
waived. The remaining 11 percent of beneficiaries reported that they did not pay a
copayment half or more than half of the time, but not always.

One beneficiary in our review from the California CBA reported that she never paid a
copayment for her DTS in 2010 or 2011 and believed Medicare covered the full amount.
She was not aware that she is responsible for a 20-percent copayment for her DTS.
Further, she stated that she did not choose her DTS supplier; she reported attending a
diabetes class and was “given this company to get supplies from.”

Five percent of beneficiaries in our review received unsolicited DTS from suppliers in
2010 or 2011. On average, beneficiaries in our review reported receiving unsolicited
DTS two times in 2010 and/or 2011. Beneficiaries in our review also reported receiving
an average of five unsolicited boxes of DTS in 2010 and/or 2011.

For example, one beneficiary in our review from the Orlando-Kissimmee, Florida, CBA
did not know that she is supposed to call her DTS supplier and request a refill for DTS.
She said: “[A]bout every 3 months, DTS strips that I did not order arrive. The supplier
just sends strips.” She said that she did not choose her current DTS supplier: “[T]hey
picked me, I guess.”

A second beneficiary in our review from the South Florida CBA reported receiving a
total of eight unsolicited DTS boxes from a supplier that is not her current DTS supplier.
She indicated that she saved the DTS and tested extra times when she felt that she needed
to. In some cases, she returned the DTS to the supplier and called CMS to make sure
Medicare was not billed for the DTS she returned.

CONCLUSION

In response to a CMS request, we are providing information about the extent to which
(1) claims in CBAs for the more expensive, non-mail order DTS increased between 2010
and 2011; (2) suppliers improperly billed Medicare for the more expensive, non-mail
order DTS in 2011; (3) beneficiaries changed from mail order to non-mail order DTS
between 2010 and 2011 because suppliers waived their copayments; and (4) suppliers
conducted activities that we determined to be inappropriate (i.e., waiving copayments,
sending unsolicited DTS) in 2010 or 2011. We found that claims in CBAs for the more
expensive, non-mail order DTS increased by 33 percent from 2010 to 2011, while claims
for the less expensive, mail order DTS decreased by 71 percent. Further, for 20 percent
of beneficiaries in our review, suppliers improperly billed Medicare for the more



Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 14 – Marilyn Tavenner


expensive, non-mail order DTS in 2011, but beneficiaries reported receiving the less
expensive, mail order DTS. This improper supplier billing contributed to the increase in
non-mail order DTS claims between 2010 and 2011. For the beneficiaries in our review
who reported changing from mail order to non-mail order DTS between 2010 and 2011,
none reported suppliers’ waiver of copayments as a reason for their change. Therefore,
suppliers’ inappropriate waiver of beneficiaries’ copayments did not appear to contribute
to the increase in non-mail order DTS claims between 2010 and 2011. However,
23 percent of beneficiaries in our review reported supplier activities (e.g., routinely
waiving copayments, sending unsolicited DTS) that we determined to be inappropriate.

CMS may find this information useful as it prepares to implement the DMEPOS
Competitive Bidding Program National Mail Order Competition, projected to begin in
2013. Further, CMS may also find this information useful in implementing additional
safeguards to prevent fraud, waste, and abuse in the Medicare program and in educating
beneficiaries about their Medicare benefits and the cost savings of mail order DTS to
themselves and/or the Medicare program.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-04-11-00760 in all correspondence.




Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
            Page 15 – Marilyn Tavenner


            APPENDIX A

            Table A-1 provides beneficiary information for respondents and nonrespondents in the
            South Florida Competitive Bidding Area (CBA) and the remaining eight CBAs.

            Table A-1: Beneficiary Information for Respondents and Nonrespondents in the
            South Florida CBA and the Remaining Eight CBAs

                                South Florida CBA                            Remaining Eight CBAs                         All CBAs
Beneficiary
Information
                      Respondents             Nonrespondents              Respondents   Nonrespondents      Respondents        Nonrespondents

Age
 Less than 65                    39%                         61%                 32%                 68%           35%                   65%
 65-74                           49%                         51%                 50%                 50%           50%                   50%
 75-84                           40%                         60%                 45%                 55%           43%                   57%
 85-94                           38%                         62%                 41%                 59%           39%                   61%
 95+                             43%                         57%                  0%                100%           33%                   67%

Sex
                                 40%                         60%                 39%                 61%           39%                   61%
 Female
                                 44%                         56%                 50%                 51%           47%                   53%
 Male
Diabetes Test
Strips Claims in                  852                       1,259                 907               1,306         1,759                 2,565
2010 and 2011
Note: Sum of percentages may exceed 100 percent due to rounding.
Source: Office of Inspector General analysis of beneficiary data, 2012.




            Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 16 – Marilyn Tavenner


APPENDIX B

Table B-1 provides, for each estimate description, the combined sample statistic for
beneficiaries from two strata (i.e., the South Florida Competitive Bidding Area (CBA)
and the remaining eight CBAs), as well as the sample statistic for each of the two strata.
Each sample statistic is weighted by the size of each stratum’s population from which our
sample was selected.

Table B-1: Estimate Descriptions, Sample Sizes, and Weighted Point Estimates

 Estimate Description                                     Sample Size    Weighted Point Estimate
 Beneficiaries whose suppliers improperly billed                 211                             20%
 Medicare for non-mail order diabetes test strips
 (DTS) in 2011 but provided mail order DTS in
 2011
   South Florida CBA                                104                 21%
   Remaining Eight CBAs                             107                 20%
 Non-mail order DTS claims in 2011 for                            43                              133
 beneficiaries whose suppliers improperly billed
 Medicare for non-mail order DTS in 2011
   South Florida CBA                                22                  38
   Remaining Eight CBAs                             21                  95
 Medicare-allowed amount for non-mail order                       43                         $22,278
 DTS claims in 2011 for beneficiaries whose
 suppliers improperly billed Medicare in 2011
   South Florida CBA                                22                   $6,182
   Remaining Eight CBAs                             21                  $16,095
 Beneficiaries whose suppliers properly billed                   211                             42%
 Medicare for mail order DTS in 2010 and
 non-mail order DTS in 2011
   South Florida CBA                                104                 38%
   Remaining Eight CBAs                             107                 43%
 Beneficiaries whose suppliers properly billed                    85                             53%
 Medicare and who had DTS delivered to their
 homes in 2010 but picked up DTS from the
 suppliers’ storefronts in 2011
   South Florida CBA                                39                   8%
   Remaining Eight CBAs                             46                  65%
 Beneficiaries whose suppliers properly billed                    85                             47%
 Medicare and who had DTS delivered to their
 homes in both 2010 and 2011
   South Florida CBA                                39                  92%
   Remaining Eight CBAs                             46                  35%
 Beneficiaries whose suppliers improperly billed                 211                             29%
 Medicare for mail order DTS in 2010 but
 provided non-mail order DTS in 2010
   South Florida CBA                                104                 30%
   Remaining Eight CBAs                             107                 29%
 Beneficiaries whose suppliers improperly billed                  62                             60%
 Medicare for mail order DTS in 2010 but
 delivered DTS to beneficiaries’ homes in 2010
   South Florida CBA                                31                  77%
   Remaining Eight CBAs                             31                  55%
 Beneficiaries whose suppliers improperly billed                  62                             40%
 Medicare for mail order DTS in 2010 and who
 picked up DTS from the suppliers’ storefronts in
 2010
   South Florida CBA                                31                  23%
   Remaining Eight CBAs                             31                  45%
                                                                              continued on next page




Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 17 – Marilyn Tavenner


Table B-1: Estimate Descriptions, Sample Sizes, and Weighted Point Estimates
(Continued)

 Estimate Description                                     Sample Size   Weighted Point Estimate
 Beneficiaries who could not be classified as                    211                               8%
 receiving mail order DTS in 2010 or non-mail
 order DTS in 2011
   South Florida CBA                                104                 12%
   Remaining Eight CBAs                             107                  7%
 Beneficiaries who did not have diabetes in 2010                 211                               1%
 or 2011
   South Florida CBA                                104                 0%
   Remaining Eight CBAs                             107                 2%
 Beneficiaries who changed from mail order DTS                    85                             81%
 in 2010 to non-mail order DTS in 2011 because
 their suppliers no longer provided DTS via mail
 order
   South Florida CBA                                39                  82%
   Remaining Eight CBAs                             46                  80%
 Beneficiaries who changed from mail order DTS                    85                               8%
 in 2010 to non-mail order DTS in 2011 because
 they were dissatisfied with their suppliers
   South Florida CBA                                39                  15%
   Remaining Eight CBAs                             46                   7%
 Beneficiaries who changed from mail order DTS
                                                                  85                               7%
 in 2010 to non-mail order DTS in 2011 because
 the brand of DTS that worked with their monitors
 was no longer available through the suppliers
 they used in 2010
                                                    39                  0%
   South Florida CBA
                                                    46                  9%
   Remaining Eight CBAs
 Beneficiaries who changed from mail order DTS                    85                               2%
 in 2010 to non-mail order DTS in 2011 because
 they did not like receiving DTS through mail
 order
   South Florida CBA                                39                  3%
   Remaining Eight CBAs                             46                  2%
 Beneficiaries who changed from mail order DTS                    85                               2%
 in 2010 to non-mail order DTS in 2011 and did
 not know why
   South Florida CBA                                39                  0%
   Remaining Eight CBAs                             46                  2%
 Beneficiaries who received mail order DTS in                     85                             79%
 2010 and non-mail order DTS in 2011 and did
 not pay any copayment in 2011
   South Florida CBA                                39                  92%
   Remaining Eight CBAs                             46                  76%
 Beneficiaries who did not pay a copayment for                    71                             87%
 DTS in 2011 because they had supplemental
 insurance
   South Florida CBA                                36                  75%
   Remaining Eight CBAs                             35                  91%
 Beneficiaries who did not pay a copayment for                    71                             10%
 DTS in 2011 and did not know why
   South Florida CBA                                36                  22%
   Remaining Eight CBAs                             35                   6%
 Beneficiaries who did not pay a copayment for                    71                               3%
 DTS in 2011 because they had financial
 hardships
   South Florida CBA                                36                  3%
   Remaining Eight CBAs                             35                  3%
 Beneficiaries not aware of the potential cost                    85                             71%
 savings for mail order DTS
   South Florida CBA                                39                  77%
   Remaining Eight CBAs                             46                  70%
                                                                              continued on next page




Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
 Page 18 – Marilyn Tavenner


 Table B-1: Estimate Descriptions, Sample Sizes, and Weighted Point Estimates
 (Continued)

Estimate Description                                                  Sample Size         Weighted Point Estimate
Beneficiaries not aware of the potential cost                                  62                            67%
savings for mail order DTS who would be willing to
switch back to mail order DTS
  South Florida CBA                                           30                          73%
  Remaining Eight CBAs                                        32                          66%
Beneficiaries for whom suppliers inappropriately                                    211                      23%
waived copayments or to whom suppliers sent
unsolicited DTS in 2010 or 2011
  South Florida CBA                                           104                         32%
  Remaining Eight CBAs                                        107                         21%
Beneficiaries for whom suppliers conducted both                                     211                       1%
inappropriate activities
  South Florida CBA                                           104                         0%
  Remaining Eight CBAs                                        107                         2%
Beneficiaries for whom suppliers inappropriately                                    211                      20%
waived copayments
  South Florida CBA                                           104                         24%
  Remaining Eight CBAs                                        107                         19%
Beneficiaries for whom suppliers always                                             45                       89%
inappropriately waived copayments
  South Florida CBA                                           25                          100%
  Remaining Eight CBAs                                        20                           85%
Beneficiaries for whom suppliers inappropriately                                    45                       11%
waived copayments half or more than half of the
time, but not always
  South Florida CBA                                           25                            0%
  Remaining Eight CBAs                                        20                          15%
Beneficiaries to whom suppliers sent unsolicited                                    211                       5%
DTS
  South Florida CBA                                           104                         8%
  Remaining Eight CBAs                                        107                         4%
Average times beneficiaries received unsolicited                                    12                         2
DTS in 2010 and/or 2011
  South Florida CBA                                           8                           1
  Remaining Eight CBAs                                        4                           3
Average number of unsolicited DTS boxes that                                        12                         5
beneficiaries received in 2010 and/or 2011
  South Florida CBA                                           8                           2
  Remaining Eight CBAs                                        4                           8
Source: Office of Inspector General analysis of beneficiary interview data, 2012.




 Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 19 – Marilyn Tavenner


APPENDIX C

Tables C-1 through C-3 show the percentage change in the number of claims,
Medicare-allowed amounts, and the number of beneficiaries receiving non-mail order and
mail order diabetes test strips (DTS) in Competitive Bidding Areas (CBA) between 2010
and 2011. Each table provides these data for the South Florida CBA, the remaining eight
CBAs, and overall.

Table C-1: Number of Claims in CBAs for Non-Mail Order and Mail Order DTS in
2010 and 2011
 Paid Medicare Claims                    Number of Claims in             Number of Claims in             Change Between
                                                       2010                             2011              2010 and 2011*
 Non-Mail Order                                     399,338                          532,056                      + 33%
  South Florida CBA                   131,112                          155,946                        + 19%
  Remaining Eight CBAs                268,226                         376,110                         + 40%
 Mail Order                                               459,602                         135,541                      - 71%
  South Florida CBA                     74,921                         12,996                         - 83%
  Remaining Eight CBAs                384,681                         122,545                         - 68%
 Total                                                    858,940                         667,597                      - 22%
  South Florida CBA                    206,033                        168,942                         - 18%
  Remaining Eight CBAs                652,907                         498,655                         - 24%
* Percentage change includes beneficiaries who switched from mail order to non-mail order DTS, beneficiaries who were new to
receiving DTS through Medicare in 2011, and beneficiaries who no longer received DTS through Medicare in 2011.
Source: OIG analysis of the 18-month updates of the 2010 and 2011 CMS Durable Medical Equipment 100 Percent Standard
Analytic Files, 2012.




Table C-2: Medicare-Allowed Amounts for Claims in CBAs for Non-Mail Order
and Mail Order DTS in 2010 and 2011
Paid Medicare Claims                        Medicare-Allowed                 Medicare-Allowed             Change Between
                                            Amounts in 2010*                 Amounts in 2011*              2010 and 2011**
Non-Mail Order                                    $33,151,723                      $49,433,348                      + 49%
 South Florida CBA                     $11,374,886                      $15,614,447                    + 37%
 Remaining Eight CBAs                   21,776,837                       33,818,901                    + 55%
Mail Order                                           $58,742,124                     $ 9,642,623                        - 84%
 South Florida CBA                    $10,406,444                     $1,137,212                       - 89%
 Remaining Eight CBAs                  48,335,681                      8,505,411                       - 82%
Total                                                $91,893,848                     $59,075,971                        - 36%
 South Florida CBA                     $21,781,331                     $16,751,659                     - 23%
 Remaining Eight CBAs                   70,112,518                      42,324,312                     - 40%
* Sum of column may exceed total due to rounding.
** Percentage change includes beneficiaries who switched from mail order to non-mail order DTS, beneficiaries who were new to
receiving DTS through Medicare in 2011, and beneficiaries who no longer receive DTS through Medicare in 2011.
Source: OIG analysis of the 18-month updates of the 2010 and 2011 CMS Durable Medical Equipment 100 Percent Standard
Analytic Files, 2012.




Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
Page 20 – Marilyn Tavenner



Table C-3: Number of Beneficiaries in CBAs With Non-Mail Order and Mail
Order DTS in 2010 and 2011
                                                   Number of                        Number of            Change Between
Paid Medicare Claims
                                        Beneficiaries in 2010*          Beneficiaries in 2011*            2010 and 2011**
Non-Mail Order                                          124,991                          182,502                      + 46%
 South Florida CBA                     33,769                          47,833                        + 42%
 Remaining Eight CBAs                  91,244                        134,689                         + 48%
Mail Order                                              183,217                           70,803                      - 61%
 South Florida CBA                    30,970                            8,130                        - 74%
 Remaining Eight CBAs               152,271                            62,679                        - 59%
Total                                                   292,006                          238,748                      - 18%
 South Florida CBA                    60,777                           52,884                        - 14%
 Remaining Eight CBAs               231,275                          185,893                         - 21%
* Sum of column may exceed total due to various factors (e.g., rounding, beneficiaries being counted more than once because
they received both mail order and non-mail order DTS within a year and/or because they resided in both the South Florida CBA
and at least one of the remaining eight CBAs within the same year).
** Percentage change includes beneficiaries who switched from mail order to non-mail order DTS, beneficiaries who were new to
receiving DTS through Medicare in 2011, and beneficiaries who no longer receive DTS through Medicare in 2011.
Source: OIG analysis of the 18-month updates of the 2010 and 2011 CMS Durable Medical Equipment 100 Percent Standard
Analytic Files, 2012.




Supplier DTS Billing and Inappropriate Activities in CBAs (OEI-04-11-00760)
